IN THE SUPREME COURT OF THE UNITED STATES
No.
Viktoria Benkovitch,
Petitioner,
v:
Deutsche Bank National Trust Company, As Trustee
For Holders of The BCAP LLC Trust 2007-AA3,
Respondent.

CERTIFICATE OF SERVICE IN ACCORDANCE WITH
28 U.S.C. SECTION 1746
I HEREBY DECLARE, PURSUANT TO 28 U.S.C. SECTION 1746, AND
CERTIFY that on May 14, 2020,1 caused the foregoing Petition to be hand-delivered
to the Clerk of the United States Supreme Court at 1 First Street, N.E., Washington,
D.C. 20543 by a third-party commercial carrier for next business day priority
delivery; and, also mailed the foregoing through Canada Post and the United States
Postal Service by first-class mail to the Respondent's legal counsel: Akerman, LLP at
210 East Park Avenue, Suite 300, Tallahassee, Florida, USA 32301, Telephone: (850)
224-9634; Attention: Nancy M. Wallace, Esq., and also Michael J. Larson, Esq.
I DECLARE UNDER PENALTY OF PERJURY UNDER THE LAWS OF THE
UNITED STATES OF AMERICA THAT THE FOREGOING IS TRUE AND
CORRECT.
Executed on: May 13, 2020

VIKTORIA BENKOVITCH
Petitioner, Appearing Pro Se
44 Cotswold Crescent,
Toronto, Ontario, Canada M2P 1N2
Tel: (786) 223-3979
Email: Benkovitch@hotmail.com
38

